BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Motion for Leave to File
Amicus Curiae Brief and Brief of Senator Charles
Grassley, Representative Jerrold Nadler,
Representative Robert Goodlatte (Ret.), Senator
Richard Blumenthal, Senator Marco Rubio,
Representative Theodore Deutch, Senator Thom Tillis,
Representative Kathleen Rice, and Senator Bill Nelson
(Ret.) as Amici Curiae in Support of Petitioners in 19764, Mark I. Sokolow, et al. v. Palestine Liberation
Organization, et al., were sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 15th day of January, 2020:
John Patrick Elwood
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5992
john.elwood@arnoldporter.com
Counsel for Petitioners
Gassan Adnan Baloul
Squire Patton Boggs (US)
2550 M Street NW
Washington, DC 20037
(202) 457-6155
gassan.baloul@squirepb.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

J. Carl Cecere
Counsel of Record
CECERE PC
6035 McCommas Blvd.
Dallas,Texas 75206
(469) 600-9455
ccecere@cecerepc.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 15, 2020.

Julie A. Kershner
Becker Gallagher Le
ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

,

~

f J" 6)JO

c11k-~,

Notary Public
[seal]

